         U.S. Department of Energy
         Office of Inspector General
         Office of Audit Services




Audit Report

Use of Performance Based
Incentives by the Office of
Civilian Radioactive Waste
Management




DOE/IG-0702                            September 2005
REPORT ON THE USE OF PERFORMANCE BASED INCENTIVES BY
THE OFFICE OF CIVILIAN RADIOACTIVE WASTE MANAGEMENT




TABLE OF
CONTENTS



                Performance Based Incentives


                Details of Finding ......................................................................1

                Recommendations and Comments.............................................6


                Appendices


                1. Objective, Scope, and Methodology....................................7

                2. Prior Reports ........................................................................9

                3. Listing of Performance Based Incentives ..........................10

                4. Management Comments ....................................................12
USE OF PERFORMANCE BASED INCENTIVES

Incentives Not   The Office of Civilian Radioactive Waste Management
Reduced          (OCRWM) did not administer Bechtel's performance based
                 incentives to maximize contractor performance. OCRWM
                 paid certain incentive fees even though:

                    •   Additional time was needed by Bechtel to correct
                        poor quality work;

                    •   Work scope was reduced due to poor contractor
                        performance;

                    •   Delivered products were not acceptable to
                        OCRWM; and,

                    •   Incentivized work was eliminated.

                 In addition, OCRWM paid Bechtel a super stretch incentive
                 fee for completing additional work when it had not
                 completed initial work requirements. (See Appendix 3 for a
                 listing of the performance based incentives available and
                 received).

                 In our opinion, the circumstances surrounding the delays
                 and reductions in work scope and expectations were within
                 Bechtel's control. Examples follow:

                                  Additional Time Needed

                 OCRWM paid most of the fee associated with the Site
                 Recommendation contract incentive even though Bechtel
                 needed additional time and effort to complete the work
                 products. Bechtel's incentive was for the Department to
                 issue a Site Recommendation to the President by December
                 18, 2001, for an incentive fee of $17,670,000. Bechtel
                 submitted the Site Recommendation documents in
                 December 2001; however, the documents contained
                 inconsistencies between models and designs and were not
                 acceptable to OCRWM. According to performance
                 monitors, the additional time needed by Bechtel to correct
                 the inconsistencies in the documents resulted in a 22 day
                 delay in meeting the milestone date.

                 OCRWM initially withheld $854,673 from incentive fee
                 payments but subsequently paid all but $125,786 of the full
                 fee after the Site Recommendation was issued two months
                 later on February 14, 2002. OCRWM's justification for the


Page 1                                                   Details of Finding
         incentive fee payment did not mention the delay caused by
         Bechtel's submission of poor quality work. Instead, the
         incentive fee justification documents stated the delay was
         due to events beyond the contractor's control, such as the
         Nuclear Regulatory Commission's issuance of regulations
         and OCRWM's extension of public comment periods.

                        Scope of Work Reduced

         OCRWM did not reduce incentive fees when Bechtel's
         scope of work was reduced due to poor performance.
         Bechtel was required to prepare a critical decision package
         to start the Preliminary Design phase of the repository. The
         incentive required Bechtel to prepare nine documents by
         September 2002, including a Conceptual Design Report, a
         Preliminary Project Execution Plan, and an Acquisition
         Plan. Bechtel submitted the critical decision documents for
         review on December 20, 2002. However, the OCRWM
         performance monitor found that the documents were
         incomplete and not written in accordance with Department
         orders.

         In a letter to Bechtel, OCRWM officials stated their
         disappointment in the quality of work Bechtel submitted.
         Because of the importance of the critical decision package
         and to ensure the documents were completed correctly and
         timely, OCRWM assumed responsibility for three of the
         nine documents. Based on the late submission and poor
         quality of documents submitted, OCRWM reduced
         Bechtel's $1.4 million incentive fee by $364,000.
         However, the fee justification documents did not show a
         reduction in fee as a result of the change in the scope of
         work.

                     Products Unacceptable to OCRWM

         Bechtel was paid the full fee to develop an Issue
         Management System for tracking management issues and
         corrective actions even though the system was not
         acceptable to OCRWM. OCRWM's performance monitor
         determined that the system was not user-friendly (based
         upon the ease of entry, retrieval and reporting issues).
         Further, the system did not provide a single repository for
         all corrective actions as required by OCRWM. Because the
         system did not meet OCRWM's requirements, the monitor
         recommended an incentive fee reduction of $500,000.



Page 2                                           Details of Finding
         Despite this recommendation, Bechtel received the full
         incentive fee. OCRWM did not provide an explanation
         why the incentive fee was not reduced; however, the fee
         justification documents noted that system corrections
         would be completed in the following period.

                             Incentive Eliminated

         OCRWM eliminated an incentive for the development of
         the Licensing Support Network but did not eliminate the
         fee associated with the incentive. Bechtel was to deploy a
         Licensing Support Network on the internet, loaded with
         key documents and schedules that would be accessed by
         the Nuclear Regulatory Commission and other interested
         parties during the review of the license application. If the
         Network was completed by March 2003, Bechtel could
         earn a $2 million incentive fee.

         Shortly after the start of the performance period, OCRWM
         determined that Bechtel would not complete the Licensing
         Support Network by March 2003. OCRWM based its
         determination, in part, on Bechtel's past performance which
         had not provided satisfactory support in litigation matters.
         Bechtel's responsibilities were eliminated, and OCRWM
         hired an outside contractor to complete the task. Instead of
         eliminating the $2 million incentive fee, OCRWM
         redistributed the fee to new incentives even though
         Bechtel's contract stated that if an incentive within its
         control was not achieved, the fee would be lost.

                             Additional Fees Paid

         OCRWM paid Bechtel a super stretch incentive fee even
         though the contractor had not met the initial requirements,
         as stipulated by the Department's Performance Based
         Contracting Guide.

         Under OCRWM's Performance Evaluation and
         Measurement Plan, Bechtel could earn super stretch
         incentive fees by submitting additional documents due in
         future periods. Bechtel would receive a higher fee for the
         early submission of documents under the super stretch
         incentive than it would be paid for meeting the initial
         requirements.




Page 3                                              Details of Finding
                In one case, OCRWM paid Bechtel approximately
                $300,000 for four additional documents provided under the
                super stretch incentive, although it had failed to provide
                OCRWM with five documents required by the initial
                requirements of the incentive. According to a Bechtel
                official, when Bechtel determined that some of the original
                documents would not be completed on time, the contractor
                concentrated on completing the additional documents.

Standards Not   OCRWM could not adequately administer
Established     performance based incentives because it had not
                established clearly defined standards to evaluate Bechtel's
                performance in awarding incentive fees. OCRWM
                developed the Performance and Evaluation Measurement
                Plan (Plan) for assessing Bechtel's performance; however,
                the Plan did not include measurable performance standards
                that defined acceptable quality, quantity, and timeliness
                standards, as required, nor had the Plan been updated when
                events changed. Further, OCRWM did not have controls in
                place to assure that the rationale for fee payments could be
                justified.

                 Unclear Quality, Quantity, and Timeliness Requirements

                Although required by Acquisition Regulations, OCRWM's
                Plan did not:
                   •   Identify acceptable quality levels for each incentive;

                   •   Specify that initial requirements of an incentive had
                       to be met before Bechtel could receive super stretch
                       fees for competing additional work; or

                   •   Provide specific methodologies to reduce incentive
                       fees when milestones for completion dates were not
                       met.

                For example, OCRWM's Plan did not specify formal
                criteria regarding the acceptable quality and content of
                documents. In the case of the Site Recommendation
                package, Bechtel submitted documents that contained
                inconsistencies between models and designs. OCRWM
                paid Bechtel the incentive fees for submitting the draft
                documents by the due date. Since the incentive did not
                specify the expected quality level, no fee reductions were
                made even though Bechtel had to rework the documents to
                meet OCRWM requirements.



Page 4                                                   Details of Finding
                                        Plan not Updated

                   Although Department of Energy Acquisition Regulations
                   (DEAR 970.5215-1) require performance standards be
                   established prior to the beginning of a performance period
                   and any changes to incentives be made 30 days before the
                   end of the performance period, OCRWM did not always
                   update the Plan. Specifically, OCRWM established some
                   incentives three months after the start of a performance
                   period and another incentive was eliminated after the
                   performance period. According to an OCRWM official,
                   there was not enough time to document the numerous
                   changes made to the plan.

                                     Lack of Documentation

                   Finally, OCRWM did not fully document its rationale for
                   the amount of incentive fees awarded to Bechtel.
                   Specifically, the minutes of the Performance Evaluation
                   Board (Board) meetings did not address the performance
                   monitor's recommendations for fee reductions for poor
                   quality work and missed milestones, or document why the
                   performance monitors recommendations were not
                   addressed. One official said there was not enough time to
                   document discussions and decisions regarding fee
                   payments. Since the Board did not consider the necessity
                   of documenting discussions and decisions on how the
                   amount of fee awarded was determined, it was unclear what
                   rationale the fee determining official used when deciding
                   the appropriate fee.

                   Although OCRWM required performance monitors to
                   document and maintain information, this requirement did
                   not apply to the Board or fee determination official.

Expectations Not   While the total cost of inappropriate incentive
Met                fee payments cannot be determined, we estimate that
                   OCRWM paid approximately $4 million even though
                   Bechtel delivered poor quality work and missed deadlines.




Page 5                                                     Details of Finding
RECOMMENDATIONS   We recommend the Acting Director, Office of Civilian
                  Radioactive Waste Management:

                      1.   Establish a Plan with clearly defined standards,
                           including:

                             •    Acceptable quality levels for each incentive;

                             •    Specific fee reduction procedures to adjust
                                  incentive fee payments when performance
                                  expectations within Bechtel's control are not
                                  met;

                             •    Controls to ensure that initial requirements
                                  are completed before super stretch fees are
                                  paid for additional work; and,

                             •    Current milestone dates and performance
                                  expectations, which are modified on a
                                  timely basis.

                      2.   Ensure that the rationale for fee payments is
                           documented by the Performance Evaluation Board
                           and the fee determination official.


MANAGEMENT        Management concurred with our findings and
REACTION          recommendations. Further, management agreed to develop
                  a comprehensive corrective action plan to provide clearer
                  and more objective performance standards in Bechtel's
                  contract.

                  Management's comments are included in their entirety in
                  Appendix 4.


AUDITOR           Management's comments are responsive to our
COMMENTS          recommendations.

                  .




Page 6                                   Recommendations and Comments
Appendix 1


OBJECTIVE     The objective of this audit was to determine if OCRWM
              administered Bechtel's performance based incentives to
              maximize contractor performance.


SCOPE         The audit was performed between September 2004 and
              August 2005, at the Office of Repository Development and
              Bechtel SAIC Company, LLC in Las Vegas, Nevada. We
              also interviewed personnel from OCRWM and the Office of
              Procurement and Assistance Management in Washington,
              D.C. The scope was limited to the activities associated with
              15 performance based incentives from February 2001
              through September 2004 and the available incentive fees
              totaling $50,900,626.


METHODOLOGY   To accomplish the audit objective, we:

                •   Obtained and reviewed applicable Federal and
                    Department of Energy Acquisition Regulations and
                    Guidelines, prior audits, and contract documents;

                •   Assessed compliance with the Government
                    Performance and Results Act of 1993;

                •   Interviewed appropriate program and contract
                    personnel; and,

                •   Analyzed performance incentive documentation,
                    including: evaluations, fee determination
                    recommendations, and fee payments.

              The audit was conducted in accordance with generally
              accepted Government auditing standards for performance
              audits and included tests of internal controls and compliance
              with laws and regulations to the extent necessary to satisfy
              the audit objective. Because our review was limited, it
              would not necessarily have disclosed all internal control
              deficiencies that may have existed at the time of our audit.
              We did not rely on computer processed data to accomplish
              our audit objective. The Department established
              performance measures under the Government Performance
              and Results Act of 1993 and passed them down to Bechtel
              through the performance based incentives. While we
              identified deficiencies with the administration of the


Page 7                             Objective, Scope, and Methodology
Appendix 1 (continued)

                   performance based incentives, we found the Department
                   complied with the Government Performance and Results
                   Act of 1993.

                   We discussed the results of the audit with OCRWM on
                   August 18, 2005. Management waived the exit conference.




Page 8                                 Objective, Scope, and Methodology
Appendix 2

                                   PRIOR REPORTS
Office of Inspector General
   •   Use of Performance-Based Incentives at Selected Departmental Sites (DOE/IG-
       0510, July 2001). Department field sites did not utilize performance based
       incentives to improve contractor performance. Specifically, contractor's
       performance incentives fees were increased, while the corresponding performance
       measures were either unchanged or decreased. Further, the Department
       established performance measures after the work was completed. As a result,
       $5.3 million was questioned as to whether the fees could have been better used to
       incentivize other work.
   •   Inspection of Selected Aspects of the Office of River Protection Performance-
       Based Incentive Program (DOE/IG-0506, June 2001). The Office of River
       Protection's incentives did not challenge the contractor to perform at a higher
       level and high priority tasks were not always incentivized. A lack of internal
       controls and no quality acceptance criteria impacted management's ability to
       effectively administer the program. Additionally, management's rationale for
       establishing and changing incentive fees was not documented.
   •   Incentive Fees for Bechtel Jacobs Company LLC (DOE/IG-0503, May 2001).
       The Oak Ridge Operations Office did not establish incentives for Bechtel Jacobs
       prior to the start of performance periods and performance expectations were
       reduced during the performance periods. As a result, Bechtel Jacobs received
       $6.2 million in incentive fee payments even though the performance expectations
       were not met.
Government Accountability Office Reports
   •   Department of Energy - Status of Contract and Project Management Reforms
       (GAO-03-570T, March 2003). The report credited the Department with progress
       in implementing contract and project management reform; however, the
       Department was not able to show that contractors' performance improved. The
       Yucca Mountain Project, as of March 2003, showed a three year delay and a $2.1
       billion cost increase to submit the license application. The report recommended
       improving contract management and establishing meaningful performance
       measures.
   •   Contract Reform – DOE Has Made Progress, But Actions Needed to Ensure
       Initiatives Have Improved Results (GAO-02-798, September 2002). Contract
       reforms did not result in improved contractor performance, as contractors still
       incurred schedule delays and cost increases. Further, the Department did not
       clearly define incentive goals, establish results-oriented measures, and use results-
       oriented data to evaluate the effectiveness of the incentives and make additional
       changes as needed. To improve contract incentives, the report recommended that
       the Department align its incentives with the current best practices.




Page 9                                                                      Prior Reports
Appendix 3


                   LISTING OF PERFORMANCE BASED INCENTIVES

                                                     Available     Incentive
Performance Based Incentives Reviewed                Incentive     Fee          Questioned
                                                     Fee           Received     Fees Paid

Long Term Incentives
1. Department Issues Site Recommendation             $17,670,000 $17,544,214      $728,887i
2. Department Submits License Application ii          13,980,626   9,575,640

Short Term Incentives:
1-2.1   Deliver Critical Decision Package              1,400,000    1,036,000     467,000iii
1-2.2   Engineering Design Readiness Review            1,400,000    1,330,000
1-2.3     Total System Performance Assessment-         1,400,000    1,400,000
            License Application Method and
            Approach Documents
1-2.4     2002 Key Technical Issue Agreements          1,400,000    1,295,000
1-2.5     Safety Conscious Work Environment iv         1,900,000    1,900,000       500,000
1-2.6     2003 Key Technical Issue Agreements            795,000      402,469
          Super Stretch Incentive Feev                   530,000      300,000       300,000
1-2.7     Safety Conscious Work Environment vi         1,700,000    1,400,000
1-2.8     Deploy the Department's Licensing                    0            0             0
             Support Network Web Sitevii
1-        Draft and Initiate Team on License           1,325,000    1,325,000     1,000,000
2.8viii      Application Chapters
1-2.9     Feeds of Preliminary Information to          1,825,000    1,222,750
             Total System Performance
             Assessment – License Application
1-2.10    Interim License Application Design           1,325,000    1,033,500     1,000,000
             Review
1-2.11    Develop Integrated Package for Key           1,450,000    1,252,500
             Technical Issue Agreements
1-2.12    Develop and Recommend                        1,500,000    1,145,000
             Requirements and Stabilized Design
1-2.13    Deliver Draft Pre-Closure Safety              200,000       200,000
             Analysis
1-2.14    2003 Feeds to Total System                   1,100,000    1,089,000
             Performance Assessment for
             Modeling
                                           Totals    $50,900,626 $43,451,073     $3,995,887




Page 10                                             Listing of Performance Based Incentives
Appendix 3 (continued)

i
     OCRWM initially withheld $854,673 from incentive fee payments for Bechtel's lateness
      and poor quality of documents submitted; however, OCRWM only withheld $125,786
      from the final fee payment. We questioned the payment of incentives fees totaling
      $728,887 which were initially withheld to reflect reductions for Bechtel needing
      additional time and effort to correct work.
ii
     OCRWM's second incentive was changed to allow Bechtel to earn progress payments
     and short term incentive fees as their work progressed towards the completion of the
     License Application. Bechtel received $9,575,640 in progress payments from a total
     available amount of $13,980,626. OCRWM's available short term incentive fees
     totaled $19,250,000, as listed in incentives 1.2-1 to 1.2-14.
iii
      OCRWM completed three of nine reports for Bechtel. Therefore, we questioned one-
      third of the incentive fee due to the reduced scope of work. ($1.4 million X 1/3 =
      $467,000)
iv
      We questioned $500,000 because a performance monitor said the incentive fee payment
      should be reduced since Bechtel did not meet incentive performance expectations.
v
      We questioned $300,000 of super stretch fees paid even though the initial work was not
      completed.
vi
      At the end of a performance period, OCRWM eliminated part of a performance
      expectation in incentive 1.2-7 and redistributed the fee. Incentives 1.2-6, 1.2-8, 1.2-9
      and 1.2-10 each received $325,000 from the $1.3 million incentive fee.
vii
       OCRWM eliminated Bechtel's original incentive 1.2-8, Deploy the Department's
       Licensing Support Network Web Site, and redistributed the $2 million incentive fee.
       OCRWM created two new incentives and assigned incentive fees of $1 million to each.
       We questioned the redistribution of the $2 million incentive fee since Bechtel's contract
       stated that if an incentive was not achieved and was within their control, the fee would
       be lost. (See incentives 1.2-8 and 1.2-10 for the $2 million questioned.)
viii
        OCRWM created two new incentives after the original incentive 1.2-8 was eliminated.
       OCRWM reused the incentive number 1.2-8 and created a new number, 1.2-10, for the
       two new incentives.




Page 11                                            Listing of Performance Based Incentives
Appendix 4




Page 12      Management Comments
                                                            IG Report No. DOE/IG-0702


                         CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.

Name                                          Date ______________________________


Telephone                                     Organization ________________________

When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                 Washington, DC 20585
                              ATTN: Customer Relations


If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Leon Hutton at (202) 586-5798.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:


              U.S. Department of Energy Office of Inspector General Home Page
                                      http://www.ig.doe.gov


  Your comments would be appreciated and can be provided on the Customer Response Form
                                 attached to the report.
